         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Special Report
Questioned, Unresolved and Potentially
Unallowable Costs Incurred by Los
Alamos National Laboratory during
Fiscal Years 2008 and 2009




OAS-L-12-04                                 April 2012
                                  Department of Energy
                                     Washington, DC 20585


                                          April 19, 2012

MEMORANDUM FOR THE ADMINISTRATOR, NATIONAL NUCLEAR SECURITY
               ADMINISTRATION




FROM:                     George W. Collard
                          Assistant Inspector General
                             for Audits
                          Office of Inspector General

SUBJECT:                  INFORMATION: Special Report on "Questioned, Unresolved and
                          Potentially Unallowable Costs Incurred by Los Alamos
                          National Laboratory during Fiscal Years 2008 and 2009"

BACKGROUND

Since June 2006, Los Alamos National Security, LLC, has operated the National Nuclear
Security Administration's Los Alamos National Laboratory (Los Alamos) for the Department of
Energy. Los Alamos is a multi-program laboratory with critical national security
responsibilities, including research and a limited production mission that help to ensure the
safety, security and reliability of the Nation's nuclear weapons stockpile. Los Alamos incurred
and claimed costs of $1.8 billion in Fiscal Year (FY) 2008 and $1.9 billion in FY 2009.

As an integrated management and operating contractor, Los Alamos' financial accounts are
integrated with those of the Department, and the results of financial transactions are reported
monthly according to a uniform set of accounts. Los Alamos is required by its contract to
account for all funds advanced by the Department, safeguard assets in its care, and to claim only
allowable costs. Further, Los Alamos is required to account for costs incurred annually on its
Statement of Costs Incurred and Claimed (SCIC).

On April 3, 2012, we issued a separate contract audit report on Audit Coverage of Cost
Allowability for Los Alamos National Laboratory during Fiscal Years 2008 and 2009 under
Department of Energy Contract No. DE-AC52-06NA25396 (OAS-V-12-05, April, 2012). The
objectives of the audit were to determine whether questioned costs and internal control
weaknesses impacting allowable costs identified in prior audits and reviews had been adequately
resolved, and whether Los Alamos conducted or arranged for audits of its subcontractors when
costs incurred were a factor in determining the amount payable to a subcontractor. Among other
observations, the audit report identified specific costs and internal control issues that had yet to
be resolved under the contract.

CONCLUSIONS AND OBSERVATIONS

We identified approximately $2 million in questioned and unresolved costs claimed by Los
Alamos during FYs 2008 and 2009. We also identified more than $437 million in FYs 2008 and
2009 and prior year subcontract costs that were unresolved pending audit or review by Los
Alamos' Internal Audit. Finally, we noted other concerns that need to be addressed to ensure that
only allowable costs are claimed by and reimbursed to Los Alamos.

                                 Unresolved Questioned Costs

NNSA had not resolved about $2 million in costs questioned by Los Alamos' internal audit
function during FYs 2008 and 2009 (See Attachment 1). The majority of these costs concerned
labor charges of $1.9 million that Internal Audit found either did not benefit NNSA or did not
comply with the contract's allowable cost provisions. For example, the audit identified two
employees who charged a combined total of 1,656 hours to the contract between November 2007
and June 2008 while conducting job searches. Internal Audit recommended that Los Alamos
senior management determine if the costs should be refunded to NNSA as unreasonable costs.
According to a September 2010 Los Alamos memo on actions in response to the report, Los
Alamos management determined that the $1.9 million was not significant or unreasonable. The
NNSA Office of Field Financial Management (OFFM) did not concur and referred the matter to
the Contracting Officer for resolution. As of January 2012, the Contracting Officer was working
with Los Alamos to resolve the questioned costs.

                     Unresolved FY 2008 and FY 2009 Subcontract Costs

We identified $165,092,842 in subcontract costs incurred during FYs 2008 and 2009 that we
consider unresolved because the subcontract audit function, performed by Los Alamos'
Acquisition Services Management (ASM) during this period, conducted reviews that did not
meet generally accepted Government auditing standards (See Attachment 1). Therefore, the
reviews did not comply with the terms of the prime contract, which requires periodic audits of
subcontracts where costs incurred are a factor in determining the amount payable. We reviewed
the workpapers used to support two of ASM's reports and concluded the workpapers did not
provide sufficient evidence to determine what work was done or to support the conclusions
reported by ASM. Finally, we noted that Internal Audit found that ASM's audit function was
inadequately staffed, there were no FY 2008-2009 risk assessments of subcontracts requiring
audits, and no audit work plan had been prepared for either FY 2008 or FY 2009, as required by
the contract. After Internal Audit's assessment of ASM's subcontract audit function, Los Alamos
management returned responsibility for the subcontract function to Internal Audit effective
August 2010.

                              Unresolved Costs from Prior Years

In our contract audit Report on the Assessment of Changes to the Internal Control Structure and
Their Impact on the Allowability of Costs Claimed by and Reimbursed to Los Alamos National
Laboratory under Department of Energy Contract No. DE-AC52-06NA25396 from June 1, 2006
to September 30, 2007 (OAS-V-09-10, August, 2009), we identified 28 subcontracts with
$285,177,886 in FY 2007 incurred costs that required audit (See Attachment 2). NNSA's
response to our prior report committed to having these costs audited. However, the contractor
believed most of the 28 subcontracts did not require audit under thresholds approved in May
2009, which were made retroactive to the beginning of the contract. Recently, Internal Audit

                                               2
audited $13,195,568 in FY 2007 subcontract incurred costs. Based on our review of ASM's
subcontract audit function and Internal Audit's determination that the function was ineffective,
we concluded that ASM reviews did not meet generally accepted Government auditing
standards. Therefore, we considered the remaining $271,982,318 in FY 2007 subcontract costs
unresolved pending audit. A Los Alamos Site Office official indicated that the Site Office will
work with Internal Audit to address the unaudited subcontracts previously reported by the Office
of Inspector General.

In addition, we previously reported a total of $2,193,910 of questioned costs for the period June
2006 through September 2007. As of January 2012, Los Alamos had resolved all questioned
costs except $55,487. The Contracting Officer and OFFM continue to work with the contractor
to resolve these costs. Finally, our previous report identified costs of $7,592,056 incurred on 49
subcontracts requiring closeout. The subcontracts have either been closed or extended beyond
FY 2009. Therefore, none of these subcontracts required further action as of the end of FY 2009.

                                   Subcontract Audit Strategy

We also questioned whether Los Alamos' subcontract audit strategy, which was based on a
subset of the Defense Contract Audit Agency's (DCAA) requirements, provided sufficient
coverage to ensure that only allowable costs were paid with NNSA funds. Specifically, in
addition to not auditing most subcontracts, we noted that ASM's invoice review was not effective
in ensuring that unallowable costs were not paid. Further, Internal Audit reported in September
2011 that ASM's validation of subcontract invoices during FY 2010 was not adequate to ensure
that billed costs were accurately compiled, properly supported, and allowable. Under the
approved subcontract audit strategy, only two of the 975 cost-type subcontracts and none of the
429 time and materials/labor hour subcontracts active during the period required an audit. We
benchmarked Los Alamos' subcontract audit strategy against the DCAA Audit Manual and found
that Los Alamos' strategy did not meet key DCAA requirements. For example, unlike DCAA
Audit Manual requirements, Los Alamos' strategy had no procedures for: (a) independently
determining or reviewing risk, leaving risk determination solely to ASM management's
judgment; (b) selecting or auditing a random sample of low-risk subcontracts; and, (c) triggering
referral of contracts below $15 million annual incurred costs for audit.

Subsequent to our raising concerns to the Los Alamos Site Office, the Site Office issued
direction in November 2011 to the contractor stating that heightened attention to verification and
validation of subcontractor costs invoiced and paid was warranted, and that it expected a more
exhaustive subcontract audit program to remediate identified weaknesses. Site Office officials
told us that they were concerned about the gaps we identified between DCAA requirements and
the Los Alamos' subcontract audit strategy. They stated that Los Alamos had not provided
sufficient resources for subcontract oversight, including audit resources; and this had been a
problem for several years, which was consistent with our analysis of activities in FYs 2008 and
2009 and Internal Audit's recent audit findings. In response to our concerns, Internal Audit told
us that it plans to select a number of lower-risk subcontracts for audit with resources that remain
after it performs the subcontract audits required under the current thresholds and any audits




                                                 3
requested by ASM. In November 2011, Internal Audit also proposed performing closeout audits
on subcontracts with total costs over the life of the contract exceeding $15 million, which were
previously not subject to audit.

          NNSA Field Chief Financial Officer Signature on FY 2008 and 2009 SCICs

The NNSA Field Chief Financial Officer (CFO) signed the FY 2008 and 2009 SCICs in
December 2011. However, the CFO's approval was qualified because of concerns that
mischarging may result in unallowable costs being charged to the Government. The CFO also
noted that control environment issues at Los Alamos may impede the identification of
unallowable costs. Internal Audit re-opened some corrective actions in the employee relocation
costs and labor charging areas during the course of our audit that will require Los Alamos
management to take additional steps to address these issues. As of January 2012, OFFM
continued to work with the Contracting Officer and the Department to resolve these issues.
Although the SCICs were signed by the NNSA Field CFO, the OIG will not sign the SCICs for
FYs 2008 and 2009 until corrective actions are completed to address both the CFO's concerns
and the issues raised in this report.

In our contract audit report on costs incurred by Los Alamos during FYs 2008 and 2009, we
recommended that the Administrator, National Nuclear Security Administration, require the
Manager, Los Alamos Site Office, to direct the Contracting Officer to:

   1. Make a determination regarding the allowability of questioned and unresolved costs
      identified in this report and recover those costs determined to be unallowable;

   2. Ensure that the contractor provides assurance that the reviews performed by ASM were
      sufficient to ensure that all unallowable costs were identified and, where possible,
      recovered;

   3. Re-evaluate Los Alamos' subcontract audit strategy and the resources allocated to the
      audit function to ensure adequate audit coverage of subcontracts; and,

   4. Ensure that Los Alamos completes audits on the FY 2007 subcontract costs previously
      reported as requiring audit.

MANAGEMENT AND AUDITOR COMMENTS

NNSA concurred with the findings and recommendations, and identified corrective actions.
Management noted that NNSA has taken significant actions to enhance Los Alamos' audit
program, including documenting shortcomings and withholding substantial incentive fees when
appropriate. Since the audit, Los Alamos has submitted a revised audit strategy proposal that
includes positive steps toward resolving the issues noted in the report. Management stated that
the Contracting Officer will make a final determination on the allowability and recovery of the
questioned and unresolved costs identified in the report. In addition, the Contracting Officer will
direct the contractor to perform supplemental audit procedures on the amounts reviewed by ASM
in 2008 and 2009 to help ensure no significant unallowable costs were missed and to support

                                                4
resolution of those costs. As noted, Los Alamos has proposed a new subcontract audit strategy.
It will only be approved by the Contracting Officer if it improves audit coverage and meets
generally accepted Government auditing standards and the Department of Energy Acquisition
Regulations. Finally, management stated that the Contracting Officer will direct Los Alamos to
complete audits on the FY 2007 subcontract costs previously identified as requiring audit.

Management comments and proposed actions were responsive to our recommendations.
Management's verbatim comments are in Attachment 3.

Attachments

cc:   Deputy Secretary
      Associate Deputy Secretary
      Principal Deputy Administrator, National Nuclear Security Administration
      Chief of Staff




                                               5
                                                                                                      Attachment 1



                    Summary of Questioned Costs, Unresolved Costs and Unresolved
                                Costs Pending Internal Audit Review
                                    Fiscal Years 2008 and 2009
                                Los Alamos National Security, LLC
                                Contract No. DE-AC52-06NA25396


                                                  Questioned Costs                        Total
      Questioned Cost Category                  FY 2008     FY 2009              Questioned Unresolved

Conference Travel                                  $27,332                           $27,332                $0
Employee Relocation Costs 1                        $17,875                           $17,875                $0
Employee Relocation Costs 2                                          $24,458         $24,458           $11,211
Accounts Payable                                                     $40,564         $40,564           $40,564
Special Payroll Disbursements                                         $4,000          $4,000                $0
Employee Relocation Costs 3                                         $155,027        $155,027                $0
Laboratory Sponsored Conferences                                     $29,532         $29,532            $5,000
Displaced Personnel and Transition
                                                                  $1,897,533      $1,897,533       $1,897,533
Labor
Travel to Parent Organization Events                                 $95,034         $95,034                 $0
Subsistence Costs and Change of Station                             $149,305        $149,305                 $0

Total Questioned Costs 4                           $45,207        $2,395,453      $2,440,660       $1,954,308


              Unresolved Subcontract Costs Pending Review by Internal Audit
                                              FY 2008          FY 2009                           Unresolved
ASM's Subcontract Reviews 5                   $141,399,488     $23,693,354                       $165,092,842




  1
     Questioned Employee Relocation Costs (ERC) from the Fiscal Year (FY) 2008 Allowable Cost Audit (IA-09-01).
  2
    Questioned ERC from the FY 2009 Allowable Cost Audit (IA-10-04).
  3
    Questioned ERC from the FY 2009 ERC Audit (IA-08-08).
  4
    Total Questioned Costs figures may not add due to rounding.
  5
    In addition, Los Alamos National Laboratory Acquisition Services Management (ASM) also reviewed several
    University of California subcontracts, which are outside the scope of this audit. These reviews questioned $64,555
    in costs, all of which have been resolved.


                                                           6
                                                                                                    Attachment 2



                 Current Status of Previously Reported Questioned and Unresolved Costs
                                   Los Alamos National Security, LLC
                                   Contract No. DE-AC52-06NA25396


                                            Prior Year Questioned Costs
                                                                                    Questioned         Unresolved
       Delinquent Accounts Receivable                                                  $28,590                 $0
       Previously Questioned Subcontract Costs                                      $2,165,320            $55,487

       Total Prior Year Questioned Costs                                             $2,193,910            $55,487

                              Prior Year Unresolved Subcontract Costs
                                                   Pending                                             Pending
                                                     Audit        Audited                               Audit
                                    1
       Subcontracts Requiring Audit              $285,177,886    $13,195,568                         $271,982,318
                                                                Pending            Closed or
                                                                Closeout           Extended           Unresolved
                                              2
       Subcontracts Requiring Closeout                          $7,592,056          $7,592,056                 $0

       Total Prior Year Subcontract Costs                     $292,769,942         $20,787,624       $271,982,318




1
    As of May 2011, the final subcontract was being audited by Los Alamos National Laboratory Internal Audit.
2
    The period of performance was extended on six subcontracts totaling $798,246, which did not require action
    during Fiscal Years 2008 or 2009.

                                                          7
                      Attachment 3
MANAGEMENT COMMENTS




         8
    Attachment 3 (continued)




9
                                                                     IG Report No. OAS-L-12-04


                            CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

       1. What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

       2. What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

       3. What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

       4. What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

       5. Please include your name and telephone number so that we may contact you should we
          have any questions about your comments.

Name                                          Date


Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                Office of Inspector General (IG-1)
                                      Department of Energy
                                     Washington, DC 20585

                                    ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                              following address:

                     U.S. Department of Energy Office of Inspector General Home Page
                                           http://energy.gov/ig

        Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
